 . '

Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL




       . OUTPATIENT   SURGERY:
 MEDICAR' E PAYMENTS FOR UNNgCESSARY
 AND POOR QUALITY CATARACT SURGERIES

        MANAGEMENT ADVISORY REPORT
,,   .
     . " '" ,' .'.
                 .  ,'    ..    . . -         - . ,"   . "    . ' :..
                                                                   , ,' '..
                                                             .' , " . "               , , "" . "      ';'
                                                                                                   , ,.'
                                                                                                   .           ,' ',
                                                                                                            , ". ,   , '"
                                                                                                                     "      -\(




                                OFFICE OF INSPECfOR GENERA


 The mission of the Office of Inspector General (GIG), , as man(:ated by Public Law 95- 452 , as
 amended , is to protect the integrity of the Department of Healtband HUJ1an Services ' (HHS)
 programs as well as the health and welfare of beneficiaries served by those programs. This
 statutory mission is carried out through a nationwide network of audits , investiMtjbhS , and
 inspections conducted by thieeOIG operating cOJ1poneO,ts: the Office of Audit Services , the
 Office ofInvestigation$, and the Office of Evaluation and Inspections- The OIGalso informs
 the Secretary of HHS of program and management problems and recommeildscb urses t6
 correct them.

                                        ICE    OF       AlJlT SER.VlCE
 The OIG' s Office of Audit Servi es (OAS) proyjdesallatiditing servces for HH$, eith7rby
 condticting audits with its own audit resourc sor by, overseeing audit work done by others,
     Audits examine the    peiformanceofHHS prograInS'            alld/orits gfimtees '   and contractors)n
                              responsibilitiesand: areintended to provide ind~penden!
     carryingo1Jt their respective
     assessments cifHHS programsandoperatioQs in Ofqer to reduce waste, apuse aI)d '
     mismanagement and to promote , economY,           and effcienCY throughout the'        DepartmeDt.

                                  OFFIcE OPINTIGATIONS
     The 0 IG' s OfficeoL Inyestigations (01) conducts Griminal, , civil ' anqadIIinistrative: jIlvestigations'
     of allegCitjons of wrongdoing in HHSpr6graInsbrto IIHS herieficia         sand of llnjpst .
     enrichment byprovidets.          jnvestigativeeffortsofOl   lead tocriWinalconvicti    gns
     administrative sanctions , or eiVIlInoriey' penalties. The 01also oversees State Medicaid fraud
     control units whichinvestigateaf.d prosecute fraud and patient abllse in the Medicaid progranL

                         OFFICEOFEVALUATIONANINSPECTONS
     1'l1eQIG' s Offce6(E\l9Iu ti()l1andlnspectioris(OEI)c9ndUc;tsshort                     rm l1an         IT2nt and
     program ev()luations' (c~Uedinspe ~tions)' ' that
                                                 focuspnissuesofcbncerIltolpeD rth1e rlt the
     Congress , and thepllblic; ;1Pefindingsand'            nscQritainedinth lnspecti()p
     teport& , generate rapidcurate ancluIHo te iI1,fqrn1()tionon' tbeeffcienc.y;. v,Jn~r lJIitYj: anq'
     effectivenessQfdyparlInent lpI'ograms.




                                        OEI- 09- 88- 01005

             EXECUTIVE SUMMAR 

PUROSE
Ths report estimates the amount Medicare paid for beneficiaries who underwent
cataract surgery with intraocular lens implant (1) that was deemed to be medically
unnecessary or (2) whose quality did not meet professionally recogned standards of
care. This report also estimates the amount Medicare paid for preoperative tests
that were medically unnecessary.



BACKGROUN
Section 1862(a)(1)(A) of the Social Security Act states that Medicare wil    not pay for
servces that are not reasonable and necessary under Part A or Part B.       We recently
completed an inspection in which we examined 802 Medicare outpatient cataract
surgeries performed in ambulatory surgical centers (ASCs) and hospital outpatient
departments (OPDs). For the sampled cataract surgeries with adequate
documentation , the independent medical review contractor found that 1.7 percent of
the surgeries were unnecessary and 1.8 percent of the beneficiaries received poor
quality care. By reviewing the beneficiary histories and claims obtained from the
Medicare carrers and fiscal intermediaries , we determined the payments for the
unnecessary and poor quality cataract surgeries.

FIINGS
MEDICA SPENT:
      $29.4 millon in 1988 for medically   unnecessary cataract surgeries

      $41.7 millon in 1988 for poor care rendered to cataract patients , and

      approxiately $245    700 in 1988 for medicaly unnecessary B-scans and
      endothelial cell counts.

RECOMMNDATIONS

THE HEATH       CA FINANCING ADMINSTRTION SHOUL:
      reduce the incidence of payments for medically unnecessary and poor quality
      cataract surgeries and

      reemphasize medical and postpayment review of cataract providers who
      routinely bil for B-scans and endothelial cell counts and postpayment review.
               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




                      TABLE OF CONTENTS





EXECUTIV SUMY
BACKGROUND. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

FININGS                                                                              ................4
    Medicare spent $29.4          milion in 1988 for medically             unncessary

    cataract surgery.



    Medicare spent $41.7          milion in 1988 for poor care              rendered to

    cataract patients.


    Medicare spent approxiately $245 700 in 1988 for medically

    unnecessary B-scans and endothelial cell counts.

RECOMMNDATIONS                                                                                             . . . . . . 5



APPENDIX
                  OUTATINT SURGERY:
     MEDICAR PAYMNT FOR UNCEARY AN POOR QUALIT
                  CATARCf SURGERI
                                    OEI-09-881005


PUROSE
Ths report estimates the amount Medicare paid for beneficiaries who underwent
cataract surgery with intraocular lens implant (1) that was deemed to be medically
unnecessary or (2) whose quality did not meet professionally recogned standards of
care. This report also estimates the amount Medicare paid for preoperative tests
that were medically unnecessary.



BACKGROUN
Medicare regulations do not specifically define medical necessity or quality of care.
The concepts are characterized by the practices in local medical communities.
Section 1862(a)(1)(A) of the Social Security Act states that Medicare will not pay for
servces that are not reasonable and necessary under Part A or Part B. In recent

years , many professional organizations , such as the American Academy of
Ophthalmology, have issued guidelines to their members outlining medical necessity
criteria and suggesting standards of care.

PRO Responsibilties

Prior to 1985 ,
             the peer review organizations (PROs) were not responsible for
reviewig outpatient quality of care. Since then , several legislative bils , including the
Consolidated Omnibus Reconciliation Act (COBRA) of 1985 and the Sixh Omnibus
Budget Reconcilation Act (SOBRA) of 1986 , expanded the PRO authority. The
COBRA authorized PROs to deny payment for questionable care whie SOBRA
mandated PROs to review quality of care in postacute and ambulatory care settings.

            PROs implemented 100 percent preprocedure review of at least
In April 1989 ,
10 nonemergency inpatient or outpatient surgical procedures. The PROs were given
this authority under Section 9401 of Public Law 99- 272. Currently, cataract
extraction is one of two mandatory PRO review procedures. The PROs
retrospectively review 5 percent of their preprocedure approvals on a quarterly basis.
They can deny payment based on this review. Under the upcoming scope of work
the Health Care Financing Administration (HCFA) has eliminated mandatory review
of non emergency inpatient or outpatient surgical procedures. The PROs would be
authorized to focus their resources on surgical or nonsurgical procedures and other
servces which appear to be overutilzed or substandard. The PROs will
retrospectively review 3 percent of their preprocedure approvals.
Medicare Carrier Responsibilities

In addition to processing  Medicare claims for payment , Section 1842(a)(2)(B) of the
Social Security Act requires Medicare carriers to apply " safeguards against
unnecessary utilization of servces furnished by providers. " Carrer responsibilities are
detailed in the Medicare Carrer s Manual (MCM). The carrers are responsible for
identifyng providers , by locality and specialty, whose utiliation patterns are different
from medically recognized community standards and norms. The carrers are
required to monitor claims data to develop profies on providers and their specialty
groups. The carriers also conduct studies to identify areas of special concern.

The RCF A periodically alerts Medicare fiscal agents of current abusive practices
through intermediary letters or carrer bulletins. In this   way,   the carriers can refocus
their monitoring activities while the MCM is updated.

Prior Office of Inspector General Studies

We recently completed an inspection in which we examined Medicare outpatient
surgery performed in ambulatory surgical centers (ASCs) and hospital outpatient
departments (OPDs). In February       1991 , we released the medical outcome analysis    in
a final report entitled " Outpatient Surgery-- Medical Necessity and Quality of Care
(OEI- 09- 88- 01000). The independent medical review contractor found that
1. 7 percentof cataract surgeries were medically unnecessary and 1.8 percent of the
beneficiaries received poor quality care. The medical outcome report discusses the
most common reasons why the cases were deemed medically unnecessary or the
beneficiaries received poor care.

Ths management     advisory report is limited to a discussion of the costs associated
with the medically unnecessarycataract surgeries and poor care rendered to
Medicare beneficiaries. The sampled surgeries were completed before the national
implementation of PRO preprocedure review.

MEllODOLOGY
Our random sample of 1 170 Medicare beneficiaries included 802 cataract surgeries.
Half of the surgeries  were completed in ASCs , half in OPDs. The surgeries were
performed in the 10 States with the highest number of Medicare-certifed ASCs in
February 1988: Arzona , California , Florida , Illois , Louisiana , Maryland , North
Carolina , Ohio , Pennsylvania , and Texas. The surgeries were completed durig the
fist quarter of calendar year 1988.


Mter collecting the medical records from the ophthalmologists , ASCs , and OPDs , we
used an independent medical review contractor to examine the records. The
contractor used physician specialists to develop the procedure-specifc criteria. The
physicians then reviewed each record for medical necessity, appropriateness of the
outpatient setting, and quality of care. In addition ,
                                                     we intervewed representatives of
the American Academy of Ophthalmology and a sample of ASC and OPD
ophthalmologists to identify currently acceptable standards for medical necessity and
quality of care.



We determed OPD and ASC payments by reviewig the beneficiary histories and
claims obtained from the Medicare carriers and fiscal intermediaries. For OPDs , the
payments represent the interi payments. These interi payments are subject to
adjustment based on the intermediary s audit of the hospital cost report for the fiscal
year in which the servces were rendered. For cataract surgeries , our analysis
included the ophthalmologist' s surgical fees ,ASC and OPD facility payments
preoperative tests (e. , A-scans , B-scans , and endothelial cell counts), offce visits
within 90 days after surgery, and IOL payments.

In order to gain a national perspective ,   we made two nonstatistical projections for
the data. First , we projected the 10 States ' quarterly costs to annual costs. Second
since the number of procedures in our sample represents 49 percent of the Medicare
procedures performed nationally, we calculated the national costs by dividing the
sampled costs by 0.49. Ths    methodology     assumes the 10 sampled States are
representative of the nation as a whole.
FIINGS
MEDICAR SPENT $29.4 MION IN 1988 FOR MEDICALY
UNCEARY            CATARCT       SURGERI.
The medical review contractor found that (a) 96. 9 percent of our sample (777 of
802 cases) had documentation for determining medical necessity and (b) 1.7 percent
of these (13 of 777) were not medically necessary. Table 1 in the appendix details
the $29.4 milion national cost projection for these medically unnecessary cataract
surgeries.

MEDICAR SPEN $41.7 MION IN 1988 FOR POOR CAR REERD
TO    CATARCT     PATI.
The medical review contractor found that 92. 8 percent of our sample (744 of
802 cases) had adequate documentation to determine quality of care. Of these
1.8 percent of the cataract beneficiaries (13 of 744) received poor care. Table 2 in
the appendix details the $41.7 milion cost projection for poor quality care.

MEDICAR SPENT APPROXITELY $245 700 IN 1988 FOR MEDICALY
UNCEARY B-CANS AN ENDOTHLI CEIL COUN.
Ophthalmologists intervewed as part of our study indicated that B-scans and
endothelial cell counts are rarely necessary for cataract surgery. Whe these tests
are not routine , physicians administer them if a patient s condition warrants it.
A physician may perform an ophthalmic ultrasound , called a B-scan , when the
density of the cataract precludes him from viewing the back of the patient' s eye.
The B-scan will rule out serious conditions , such as tumors or a partially or totally
detached retina. Endothelial cells , which line the inside of the cornea , keep the
cornea clear and healthy by preventing eye fluid from entering the area. Once the
cells are lost , the cornea does not easily generate new cells to repair itself. The
endothelial cell count can determine the corneal health and predict how well it
tolerate cataract surgery. If the cell count is low, the physician can take precautions
durig surgery to lessen endothelial cell loss.
In our sample , Medicare paid $13 729 for the optional tests-- 746 for 32 B-scans
and $9 983 for 133 endothelial cell counts. (Some patients received more than one
test. ) Projected nationally, Medicare paid $14.4 milion for these tests-­
$4.4 million for B-scans and $10. 0 millon for endothelial cell counts. Since the
medical reviewers determed that 1.7 percent of the cataract surgeries were
medically unnecessary, Medicare could have saved approxiately $245 748 for the
tests-- $75 337 for B-scans and $170 411 for endothelial cell counts. Tables 3 and 4 in
the appendix show the cost projections.
Questions about physicians ' practice patterns may arise if they routinely submit
                           Some sampled providers biled routinely for B-scans and
claims for additional tests.
endothelial cell counts. We found that 86 percent of the physicians who biled for
endothelial cell counts did so for 
             all of their sampled patients. The other 14 percent
performed these tests on most of their patients (e. , 13 of 14 sampled patients). In
addition , we found that one physician accounted for almost 16 percent of all B-scans
in our sample. This evidence suggests that practice patterns , not medical exigencies
may account for the additional tests.

RECOMMNDATIONS

TI HCFA SHOUL:
(1)	 REDUCE TI INCIDENCE OF PAYM FOR MEDICALY
           UNCEARY AN POOR QUALIT CATARCf SURGERI.
           This recommendation could be accomplished through a combination of efforts
           by both the PROs and carriers who can target their reviews on providers
           whose practice profies indicate a higher than average            likeliood of
           unnecessary or poor              quality care. In this way, HCFA could save as much as
           $71.1 millon in             medically unnecessary and poor quality cataract surgeries.


(2)	       REMPHAIZ MEICAL AN POSTPAYM REVIW
           CATARCf PROVIERS WHO ROUTY BIL FOR B-CANS
           ENDOTILI CEIL COUN AN POSTPAYMNT REVIW.
           The HCFA could issue a carrer bulletin to reemphasize the need for
           Medicare carrers to follow MCM Sections 7500- 7514 regarding medical review
           controls and postpayment review. The postpayment alert list in
           MCM Section 7514(E) states that carrers should monitor excessive cataract
           preoperative visual acuity tests such as B-scans and endothelial cell counts.
           The HCFA could save as much as $247 500 for unnecessary preoperative
           tests.
                          APPENDIX: METHODOLOGY

The tables on the following pages   represent the cost savings for medically
unnecessary cataract surgeries (table 1), poor care (table 2), unnecessary   B-scans
(table 3) and unnecessary endothelial cell counts (table 4).
TABLE 1:         ESTIMATED ANNUAL SAVINGS FOR MEDICALLY U NECESSARY CATARACT SURGERIES


                                            MED I CALL Y   PERCENT       AVERAGE         AVERAGE                          ESTIMATED

ST ATE                SiTE      SAMPLE     UNNECESSARY MED I CAlly      QUARTERLY         ANNUAL         ADJUSTED           ANNUAL

                                 CASES        CASES      UNNECESSARY    PAYMENTS         PAYMENTS        UN I VERSE        SAVI NGS


Ar i lona	            OPD                                       00%          $0.               $0.            1468                     $0.
                     ASC                                        qO%          $0.               $0.            2197                     $0.

California	           OPD                                     0 . 00%        $0.               $0.            5228                     $0.
                     ASC                                        76%         385.        $13 540.              8280             575 551.

Florida	              opb                                     0 . 00%        $0.              $0.
           15470                     $0.
                      ASC	                                        19%       361.         $9, 445.
            7334            tB24 652.

I II i no i s	        OPO                                       00%          $0.               $0.            3262                     $0.
                      ASC                                       00%          $0.               $0.            3262                     $0.

Louisiana	            OPO                                     0 . 00%        $0.               to.            3904                     $0.
                      ASC                                     0 . 00%        to. 00            $0. 00 '        880                     $0.

Maryland	             OPD                                        00%         $0.               $0.            1759                     to.
                      ASC	                                    O. 00%         $0.               $0.                                     $0.

Nor th Caro l i na OPD                                        0 . 00%        $0.               $0.            2633                     $0.
                      ASC                                        00%         $0.               $0.            1530                     $0.

ohio	                 OPO                                        00%         $0.              $0.             7388                     $0.
                      ASC                                        67%        593.        $10; 375.              978            $676 496.

pennsyl vanl a	       OPD                                     0 . 00%        $0.               to.            8034                     $0.
                      ASC                                     0 . 00%        $0.               $0.             971                     $0.

Texas	                OPD                                     2 . 60%       190. 73   * $12 762.             13260          $2, 197, 874.
                      ASC                                         11%       912.        $11 , 648 . 84        6514              118 378.


                      TOTALS:       777	                       NfA      $14 443.        $57 773.             94419         $14 392 953.


                      * One case did not have adequate paid tn/ormatton to be
                                        ESTiMAtED NAtioNAL
                        included in calculations.
                                                                    ANNUAL SAViNGS:

                                                                                                                           $29 373 373.
TABLE 2:         ESTIMATED ANNUAL SAVINGS FOR POOR QUALITY CATARACT SURGERIES


                                            POOR      PERCENT         AVERAGE         AVERAGE                            ESTIMATED
STATE                 SITE      SAMPLE     QUAL ITY    POOR          QUARTERLY         ANNUAL          ADJUSTED            ANNUAL
                                 CASES      CASES     QUALITY        PAYMENTS         PAYMENTS         UN IVERSE          SAVINGS

Arizona	             OPD                                      00%          $0.              to.            1468                      $0.
                     ASC                                      00%          $0.              $0.            2197                      $0. 00,
California	           OPD                               ' O. 00%          $0.               $0.            5228                      $0.
                     ASC                                     94%         441.13      $13 764.              8280               352 065.

Florida	              OPD                                 1.23%          935.        $11 741.             15470               242 454.
                      ASC                                     00%         $0.               $0.            7334                      $0.
I II I no I s	        OPO                                     00%         $0.               $0.            3262                      $0.
                      ASC                                     70%        401.        $13 607.              3262               643 932.

Loul s I ana	         OPO                                 0 . 00%          $0.              $0.            3904                      $0.
                      ASC                                 0 . 00%          $0.              $0.             880                      $0.
Maryland	             OPO                                 0 . 00%          $0.              $0.            1759                      $0.
                      ASC                                     00%          $0.              $0.                                      $0.
North Carolina OPO                                             00%         $0.              $0.            2633                      $0.
                      ASC                                      00%         $0.              $0.            1530                      $0.
Ohio	                 OPO                                 0 . 00%         $0.               $0.            7388                      $0.
                      ASC                                     41%        593.        $1 0 , 375 . 72        978             $751 663.

pennsyl vanl a	       OPD                                      00%         $0.              to.            8034                      $0.
                      ASC                                      00%         $0 . 00          $0.             971                      $0.
Texas	                OPO                                      33%    $3 , 316. 19   $13, 264.            13260               380 838.
                      ASC                                      23%        792.       $11 , 170. 12         6514               074 457.


                      TOTALS:       744	                      N/A    $18 480.        $73, 923.            94419          $20 445 411 .


                                                                                                                   ESTIMATED NATIONAL

                                                                                                                   ANNUAL SA V r NGS:

                                                                                                                         $41 725 329.
TABLE 3:        ESTIMATED ANNUAL SAVINGS FOR B-SCANS


                                                       PERCENT        AVERAGE     AVERAGE                       ESTIMATED

STATE                SITE      SAMPLE    P-SCANS       B-SCANS       QUARTERLY     ANNUAL      ADJUSTED          ANNUAL

                                CASES                                PA YMENTS    PAYMENTS     UN I VERSE       PAYMENTS


Ar i zona           OPD                                    0 . 00%         $0.        $0.           1468                 $0.

                    ASC                                        00%         $0.        $0.           2197                 $0.

Cal ifornja         OPD                                    1.33%        $131.36    $525.            5228          $36 626.

                    ASC                                      70%         $95.      $383.            8280          $85 727.

Florida             OPD                                   10. 84%        $75.      $300.          15470          $504 650.

                    ASC                                      38%        $113.      $454.           7334           $79 437.

III i no i s	       OPD                                      00%          $0.        $0.           3262                  $0.
                    ASC                                  20. 69%        $177.      $710. 92,       3262          $479 797.
Louisiana	          OPD                                   0 . 00%         $0.        $0.           3904                  $0.
                    ASC                                       00%         $0.        $0.            880                  $0.
Maryland	           OPD                                  10. 00%        $111.67    $446.           1759           $78 571.
                    ASC                                      00%          $0.        $0.                                 $0.
North Carol ina OPD                                       0 . 00%         $0.        $0.           2633                  $0.
                ASC                                       0 . 00%         $0.        $0.           1530                  $0.
Ohio	               OPD                                      45%         $53.      $215.           7388           $54 946.
                    ASC	                                     00%          $0.        $0.            978                  $0.
pennsyl vani a	     OPD                                  12. 90%       $133.       $533.           8034          $552 739.
                    ASC                                      38%       $129. 11    $516.            971           $47 012.
Texas	              OPD                                      90%       $121. 93    $487.          13260         $251, 967.
                    ASC                                      00%          $0.        $0.           6514                $0.

                    TOTALS:       777	                     N/A       $1 , 143.      574.          94419           171   475.

                                                                                                          171, 475. 24 / 0. 49 =
                                                           ESTIMATED NATIONAL ANNUAL PAYMENTS:                   431,582.
                                                                                                       7% x $4 431      582. 12   =

                                                           ESTIMATED NATIONAL ANNUAL SAVINGS:                    $75 336.
TABLE 4:       ESTfMATEP ANNUAL SAVINGS FOR ENDOTHELIAL CELL COUNTS


                                                                          AVERAGE       AVERAGE                     EST! MATED

STATE               SJTE         SAMPLE     CELL COUNTS     PERCENT      QUARTERLY       ANNUAL     ADJUSTED         ANNUAL

                                  CASES	                  CELL COUNTS    PAYMENTS       PAYMENTS    UN I VERSE      ' SAVINGS
Ar i zona	         OPO                                            00%         $0.          $0.           1468                 $0.
                   ASC                                         11. 76%     $1 04 . 01    $416.           2197        $107 534.
California	        OPO                                             00%       $0.           $0.           5228                 $0.
                   ASC                                        25 . 68%      $53. 84 *    $215.           8280        $433 746.
Florida	           OPO                                         18. 07"      $71.         $286.         15470         $800 600.
                   ASC                                         16. 67"      $60. 10      $240.          7334         $293 848.
Illf no ,S         OPO                                         10. 34%      $87.         $349.          3262         $117 , 944.

                   ASC                                        34. 48%       $93.         $373.          3262         $419 875.

loui s i ana       OPO                                        26. 67%       $92. 12      $368.          3904         $383 612.

                   ASC                                        18. 75%       $76.         $305.           880          $50 457.

Maryland	          OPD                                            00%        $0.           $0.          1759                 $0.
                   ASC                                        30. 00%       $35 . 63     $142.                              864.
North Carol ina OPD                                           17. 39%       $37.         $150.          2633         $68 870.
                ASC                                           69. 5         $47.         $190.          1530        $202 736.
ohio	              OPO                                        27. 59%       $76.         $304.          7388        $621, 121. 90
                   ASC                                        20. 00%       $72.         $291.           978         $57 060.
Pennsylvania       OPO                                            68%       $52.         $208.          8034        $161, 996.
                   ASC	                                           00%        $0.           $0. 00        971               $0.
Texas	             OPO                                            49%       $98.         $394.                      $339 249.
                                                                                                       13260
                   ASC                                        24 . 66%     $132.         $529.          6514        $850 317 . 93

                   TOTALS:	           777         133          N/A          191. 72       766.         94419      $4, 911, 837.

                   * One case did not have	                                                              $4 , 911 , 837. 88 / o. 49 =
                     adequate paid information
                     to be included                               ESTIMATED NATIONAL ANNUAL PAYMENTS:            $10 024 158.
                     ca l cua l t ions.
                                                                                                        1. 7" x $10 024	 158. 94 =

                                                                  ESTIMATED NATIONAL ANNUAL SAVINGS:                $170 , 4 1 0 . 70
